 




    INTERNATIONAL TRADE
    ADMINISTRATION
    Improvements Are Needed
    to Strengthen ITA’s
    Information Technology
    Security Program




    FINAL REPORT NO. OIG-12-037-A
    SEPTEMBER 27, 2012



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation

    FOR PUBLIC RELEASE




 
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington. D.C. 20230




 September 27, 2012

 MEMORANDUM FOR:               Francisco J. Sanchez
                               Under Secretary of Commerce for International Trade


 FROM:                         Allen Crawley 
  £lb_ C::
                               Assistant Inspector General for Systems Acquisition 

                                and IT Security 


SUBJECT: 	                     FY 20 12 Federal Information Security Management Act Audit:
                               Improvements are Needed to Strengthen ITA's Information Technology
                                 Security Program, Final Report No. OIG-12-037-A

Attached is the final report of our audit of ITA's information security program and practices,
which we conducted to meet our obligations under the Federal Information Security
Management Act (FISMA). In fiscal year (FY) 20 12, we assessed the security of six ITA systems.

We found weaknesses in these ITA systems, including inadequate security categorization that
may affect protection of critical bureau information and security control deficiencies that
increase the likelihood of a successful cyber attack. The security control deficiencies include
(a) deficiencies with vulnerability scanning and patch management, (b) weaknesses in securing
databases, (c) the presence of unauthorized software and use of unauthorized removable media,
and (d) risks related to network implementation.

We are pleased that, in response to our draft report, you concurred with our findings and
recommendations. We have summarized your response in the report and included the
response as an appendix. We will post this report on OIG's website.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 calendar days from the date of this memorandum. The plan should outline
actions you propose to take to address each recommendation.

We appreciate the cooperation and courtesies extended to us by your staff during our audit.
Please direct any inquiries regarding this report to me at (202) 482-1855 and refer to the
report title in all correspondence.

Attachment

cc: 	   Simon Szykman, Chief Information Officer
        Renee Macklin, Chief Information Officer, ITA
        Tim Hurr, Acting Director, Office of Cyber Security
        jeffrey Jackson, Chief Information Security Officer, ITA
        Justin Guz, Audit Liaison, ITA
        Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
                                              Report In Brief                                   S E P T E MB E R 2 7 , 2 0 1 2




Background                                INTERNATIONAL TRADE ADMINISTRATION
The International Trade Administra-       Improvements Are Needed to Strengthen ITA’s
tion (ITA) helps improve the global       Information Technology Security Program
business environment—and U.S.
companies compete at home and             OIG-12-037-A
abroad—through export promotion
and commercial diplomacy, as well as      WHAT WE FOUND
shaping trade policy, market access,
and enforcement of U.S. trade laws.       We found weaknesses in the six ITA systems we reviewed, including inadequate security
                                          categorization that may affect protection against critical information and security control
To fulfill its critical missions ITA      deficiencies that increase the likelihood of a successful cyber attack. The security control
heavily relies on information tech-       deficiencies include (a) deficiencies with vulnerability scanning and patch management, (b)
nology (IT), particularly the Internet,   weaknesses in securing databases, (c) the presence of unauthorized software and use of
to conduct its business, and inevita-     unauthorized removable media, and (d) risks related to network implementation:
bly faces greater cybersecurity risks.
In recent years, ITA has become a           Deficiencies with vulnerability scanning and patch management. ITA’s vulnerability scanning
frequent target of cyber attacks. In        of system components and patch management for software products do not effectively
order to minimize the serious               identify or remediate security weaknesses.
damage caused by cyber attacks,             Weaknesses in securing databases. ITA improperly configured one database to use a
ITA has taken action such as con-           blank password for authentication to a database administrator account. We also
solidating Internet access through a        identified three additional improperly configured databases that, if exploited, could
centralized service.                        allow excessive privileges to access sensitive information.
Why We Did This Review                      The presence of unauthorized software and use of unauthorized removable media. ITA has
                                            unauthorized software on its network and lacks controls to prevent the use of
The Federal Information Security            unauthorized USB devices, thus opening its systems to additional risks, such as
Management Act of 2002 (FISMA)              information exfiltration.
requires agencies to secure sys-
tems against the loss, misuse, or           Risks related to network implementation. ITA’s network implementation allows network
unauthorized access to or modifica-         traffic to flow freely between computing components, which could pose a greater
tion of information collected or            security risk on ITA systems and information.
maintained by, or on behalf of, an
agency. In addition, FISMA requires
                                          WHAT WE RECOMMEND
inspectors general to evaluate            We recommend that the Under Secretary of Commerce for International Trade:
agencies’ information security
programs and practices by assess-           1.	 Ensure that system owners and appropriate ITA officials collaborate to identify
ing a representative subset of                  and categorize all information processed, stored, or transmitted by each system
agency systems, with results re-                and categorize each system accordingly;
ported to the Office of Manage-             2.	 Mitigate the remaining vulnerabilities identified by our vulnerability scan 

ment and Budget (OMB), Depart-                  assessments; 

ment of Homeland Security, and
Congress annually.                          3.	 Improve the patch management process by (a) making timely patches for all
                                                software products and (b) coordinating within ITA to comprehensively identify
As part of an overall assessment of             and remediate software flaws in a timely manner;
the Department’s IT security pro-
gram, we evaluated information              4. 	 Address and fully implement critical security settings in database configuration 

security controls and security-                  checklists; 

related documentation for six ITA           5.	 Ensure that only authorized software and USB devices are used on both servers
systems. Our objective was to de-               and workstations; and
termine whether key security meas-
ures adequately protect ITA’s sys-          6. 	 Strengthen the worldwide enterprise network’s security posture by reducing the
tems and information.                            threats associated with allowing network traffic to flow freely between all
                                                 computing components.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................2
 
   I.	  Inadequate Security Categorization May Affect Protection of Critical

        Bureau Information ..............................................................................................................................2
 
   II.	  Security Control Deficiencies Increase the Likelihood of a Successful Cyber Attack ..........3
 
       A.	  Deficiencies with Vulnerability Scanning and Patch Management .........................................3
 
       B.	  Weaknesses in Securing Databases .............................................................................................4
 
       C.	  Risks Associated with the Presence of Unauthorized Software and Use of

            Unauthorized Removable Media ..................................................................................................5
 
       D.  Risks Related to Network Implementation ...............................................................................6
 
   Conclusion .....................................................................................................................................................7
 
   Recommendations ...........................................................................................................................................7
 
Summary of Agency Response and OIG Comments................................................................................8
 
Appendix A: Objectives, Scope, and Methodology ...................................................................................9
 
Appendix B: Agency Response ................................................................................................................... 11
 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934





FINAL REPORT NO. OIG-12-037-A
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL


Introduction 

The strength of the nation’s economy continues to depend on global trade, with the United
States exporting nearly $2 trillion worth of goods and services.1 The International Trade
Administration (ITA) plays an important role in improving the global business environment and
helping U.S. companies compete at home and abroad through export promotion, commercial
diplomacy, shaping industry-specific trade policy, market access, and enforcement of U.S. trade
laws.

To fulfill its critical missions ITA heavily relies on information technology (IT), particularly the
Internet, to conduct its business, and inevitably faces greater cybersecurity risks. In recent
years, ITA has become a frequent target of cyber attacks. For example, in November 2011, ITA
was notified of a serious cyber attack that had compromised a significant number of its servers,
which allowed the attacker to gain full control of ITA’s entire enterprise network and access to
user account credentials. ITA’s investigation of this incident found 66 malicious files residing on
its servers and workstations, some present since September 2007. In order to minimize the
serious damage caused by this attack, ITA changed all user passwords, consolidated all Internet
access through a centralized service, and made architectural changes to its network.

The Federal Information Security Management Act of 2002 (FISMA)2 requires agencies to
secure systems through the use of cost-effective management, operational, and technical
controls. The goal is to provide adequate security commensurate with the risk and extent of
harm resulting from the loss, misuse, or unauthorized access to or modification of information
collected or maintained by or on behalf of an agency. In addition, FISMA requires inspectors
general to evaluate agencies’ information security programs and practices by assessing a
representative subset of agency systems, and the results are reported to the Office of
Management and Budget (OMB), Department of Homeland Security, and Congress annually.

As part of an overall assessment of the Department’s IT security program, we evaluated
information security controls and security-related documentation for six ITA systems. Our
objective was to determine whether key security measures adequately protect ITA’s systems
and information. See appendix A for details regarding our objective, scope, and methodology.

 




                                                            
1
    See ITA’s FY 2012–2016 Strategic Plan.
2
    44 U.S.C. § 3541 et seq. (2002).


FINAL REPORT NO. OIG-12-037-A                                                                      1
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


Findings and Recommendations 

    I.	       Inadequate Security Categorization May Affect Protection of Critical
              Bureau Information

       ITA does not have assurance that it has implemented sufficient security controls to protect
       its information systems, because it has not adequately performed the required step of
       identifying the critical information in the systems.

       In order to protect its systems, an organization first needs to consider all information that a
       system processes, stores, or transmits to determine risks to the system and then select
       appropriate security controls. This process, referred to as security categorization,3 identifies
       the impact level for a system as high, moderate, or low based on the potential impact to an
       organization, should an event jeopardize its information and information systems. A system
       with a higher impact level would require the organization to implement more stringent
       security controls, compared to one with a lower impact level.

       ITA conducted a security categorization for its information and systems, and it determined
       that all information on its systems is publically available, resulting in an overall rating of
       moderate for its systems and information. However, we found ITA’s analysis to be
       inadequate; the information security categorization may be at a higher impact level. For
       example, we identified global trade information collected and processed by ITA that, if
       compromised, could have severe negative impact to ITA’s mission. Specifically, this includes
       business proprietary information provided by domestic and foreign industries to ITA’s
       Import Administration Antidumping/Countervailing Duty office to initiate and support
       dumping or illegal subsidies investigations. National Institute of Standards and Technology
       (NIST) recommends a security categorization of high for such information, which is
       protected against disclosure by administrative protective orders and other laws. According
       to senior ITA officials, if this information becomes inadvertently revealed, it could
       undermine future investigations and the trust businesses place with ITA.

       The reason for this inadequate categorization was that ITA did not conduct a
       comprehensive review of all critical business information on its systems. Instead, ITA based
       its categorization only on a review of information processed, stored, and transmitted by its
       e-mail system. By taking this approach, we believe ITA categorized its systems at a lower
       impact level, thus requiring less stringent security controls.




                                                            
3
 Federal Information Processing Standard (FIPS) 199 provides security categorization guidance for nonnational
security systems. National Institute of Standards and Technology, February 2004. Standards for Security
Categorization of Federal Information and Information Systems, FIPS 199. Gaithersburg, MD: NIST.


FINAL REPORT NO. OIG-12-037-A                                                                                   2
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL


    II.	      Security Control Deficiencies Increase the Likelihood of a Successful Cyber
              Attack

       We identified security vulnerabilities in ITA system components (e.g., servers, workstations,
       and routers) that increase exposure to cyber attacks and place mission critical data and
       systems at risk. These weaknesses exist, in part, due to deficient vulnerability scanning and
       inadequate patch management. Weaknesses further arise due to improperly secured
       databases. In addition, ITA has unauthorized software on its network and lacks controls to
       prevent the use of unauthorized Universal Serial Bus (USB) devices,4 thus opening its
       systems to additional security risks. Finally, the potential impact of all vulnerabilities
       identified is significantly greater because of weaknesses in the implementation of ITA’s
       worldwide enterprise network.

       A.	 Deficiencies with Vulnerability Scanning and Patch Management

              ITA’s vulnerability scanning of system components and patch management for software
              products (e.g., Adobe Acrobat, Adobe Flash Player, and Oracle Java) do not effectively
              identify or remediate security weaknesses. We assessed over 200 system components
              from ITA’s operational systems and found that more than 75 percent of the
              components had significant vulnerabilities due to missing patches, some available for
              over 5 years (see figure 1, next page). In fact, attackers could compromise these
              vulnerable components using known exploits to gain initial unauthorized access,
              maintain access, and exfiltrate5 sensitive data. ITA informed us that it could not install
              some security patches due to legacy applications but planned to address this issue when
              upgrading the applications.

              We did find, however, that ITA has an automated process for patching vulnerabilities
              associated with Microsoft operating systems and Office desktop productivity software
              used within its operational systems. In addition, prior to our audit, ITA recognized it had
              serious deficiencies with patching software products and began developing a process to
              address this issue. However, improvements are needed to address the following
              additional deficiencies we found:

                      	 Deficiencies in server scanning process resulted in ITA servers not being scanned for
                         vulnerabilities. Of the 257 servers in ITA’s operational systems, 36 of the servers
                         (14 percent) were not being scanned. This issue resulted from a lack of
                         coordination between ITA’s network operations and IT security organizations.

                      	 ITA did not scan network routers using administrator-level credentials. Credentialed
                         scans would have allowed the scanning tool to perform a more exhaustive and
                         accurate examination of the routers.
                                                            
4
  Universal Serial Bus (USB) is a standard for connecting electronic devices such as thumb drives, MP3 players, and
digital cameras, to computers.
5
  Exfiltrate, in the context of this report, refers to the unauthorized transfer of sensitive information from an
organization to external entities.


FINAL REPORT NO. OIG-12-037-A                                                                                         3
  DEPARTMENT OF COMMERCE
U.S.                                                                                                              OFFICE OF INSPECTOR GENERAL

                      	 Since July 2011, ITA had not patched servers running virtualized operating systems.
                         Our analysis determined that the vendor had released critical patches for flaws
                         that can potentially allow attackers to gain unauthorized access, and perform
                         denial of service attacks.

                                        Figure 1. Percentage of ITA System Components Affected 

                                                 By Vulnerabilities, by Patch Release Year


                                                                      90%
                                   Percentage of Computers Affected


                                                                      80%
                                                                      70%
                                                                      60%                                      System Components 
                                                                      50%                                      Vulnerable Due to Missing 
                                                                                                               Patches
                                                                      40%
                                                                      30%
                                                                                                               Vulnerable System 
                                                                      20%                                      Components That Can Be 
                                                                      10%                                      Compromised Due to 
                                                                                                               Known Exploits
                                                                      0%
                                                                            Before  2008 2009 2010 2011 2012
                                                                             2008
                                                                                    Patch Release Year

                             Source: OIG vulnerability scans and analysis

                             Note: A system component may have multiple missing patches released in different years. 


       B.	 Weaknesses in Securing Databases

              Configuration settings control6 has been a long-standing FISMA requirement and an
              essential and fundamental aspect of securing an information system. However, our
              assessment of ITA’s databases revealed serious vulnerabilities. For example, ITA
              improperly configured one database to use a blank password for authentication to a
              database administrator account. We validated this vulnerability by successfully gaining
              access to this account. After further analysis, we determined that an attacker could
              exploit additional improperly configured database settings to gain access to the
              underlying operating system, thus obtaining full control of the server. We also identified
              three additional improperly configured databases that, if exploited, could allow excessive
              privileges to access sensitive information (e.g., system user passwords).

              Adequately implemented configuration settings control has the potential to compensate
              for other types of vulnerabilities and can limit the impact of cyber attacks. At the time of
              our fieldwork, ITA was working to implement this control by establishing secure
              configuration checklists for various IT products, including databases. However, these
              database checklists did not address critical secure configuration settings that resulted in
                                                            
6
    Configuration settings control CM-6 is a required control listed in NIST SP 800-53.


FINAL REPORT NO. OIG-12-037-A                                                                                                               4
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

        these vulnerabilities. ITA needs to establish adequate secure configuration checklists for
        its databases and then implement them.

    C.	 Risks Associated with the Presence of Unauthorized Software and Use of Unauthorized
        Removable Media

        Preventing both the execution of unauthorized software and the use of unauthorized
        USB devices are key security measures that lessen the risk of a system compromise and
        the exfiltration of information. Despite ITA’s efforts over the last 5 years, it has not
        effectively protected its systems from such risks.

        In 2007, ITA formed an Architecture Review Board (ARB) with the responsibility of
        approving software for use on its workstations. With this board’s approval, ITA
        maintains a list of authorized software for workstations. However, we found over 150
        instances of unauthorized software present on ITA workstations, including music
        software, browser add-ons such as toolbars, and other software utilities such as hard
        drive cleaning tools (see table 1, below). According to ITA officials, these software
        products existed because they were installed prior to the ARB’s creation.

                        Table 1. Unauthorized Software on ITA Workstations
                                                              Number of Computers with
         Disapproved Software Type
                                                               Unauthorized Software
         Music software                                                  70
         Browser add-ons                                                  3
         Software utilities                                              79
        Source: results of OIG scan of 117 ITA workstations

        Leaving unauthorized software products on ITA workstations can provide opportunities
        for an attacker to exploit the software’s vulnerabilities and, thus, increase the likelihood
        of successful cyber attacks. After we notified ITA about this issue, ITA took actions to
        remove the unauthorized software. In addition, ITA is working to expand the ARB’s role
        to approve software used on servers.

        In July 2011, ITA deployed a security tool that controls execution of software on its
        computing components (e.g., workstations and servers). This tool uses a list of
        acceptable software, known as a whitelist, to determine which software it will allow.
        However, we found that ITA, when deploying this security tool, did not thoroughly
        examine software residing on its computing components. Because of the large number
        of software products its employees used, ITA decided to include on its whitelist all of
        the software present on its computing components. This action inadvertently allowed
        for the execution of existing software infected with malware, as demonstrated by
        November 2011cyber attack. ITA needs to ensure that only authorized software
        required for its business operations is allowed to execute.

        In addition, our assessment identified widespread use of unauthorized USB devices with
        ITA workstations. Of the 117 user workstations we reviewed in seven regional offices,


FINAL REPORT NO. OIG-12-037-A                                                                        5
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

              we found that 116 (99 percent) have had unauthorized devices connected to them (see
              table 2, below). Such usage of unauthorized devices can significantly increase the risk of
              exfiltration of information.

                    Table 2. Unauthorized Device Usage with ITA User Workstations
                                                                                    Number of
                                                               Number of User
                                                                                Workstations Having
                ITA Regional Office                             Workstations
                                                                                Unauthorized Devices
                                                                 Reviewed
                                                                                     Attached
                Beijing, China                                       44                 43
                Moscow, Russia                                       22                 22
                New York                                              7                  7
                Rio De Janeiro, Brazil                                9                  9
                San Francisco                                         9                  9
                Singapore                                            11                 11
                St. Louis                                            15                 15
                                   Total                            117               116
              Source: results of OIG scan of 117 user workstations

              Department policy7 does not allow use of such personally owned removal media devices
              and requires agencies to permit removable media use only when there is a valid business
              reason. ITA did authorize a specific USB thumb drive for portable storage; however, we
              found that ITA does not have technical controls in place to ensure that users do not use
              unauthorized USB devices. ITA is currently working to implement a technical solution to
              prevent use of unauthorized USB devices.

       D. Risks Related to Network Implementation

              The successful compromise of a computing component within ITA’s worldwide
              enterprise network increases the likelihood that additional components can be
              compromised. The current implementation of the ITA network allows network traffic
              to flow freely between all computing components. For example, our testing of ITA’s
              network confirmed that a user’s workstation located in Beijing, China, was successfully
              able to communicate with a development database server located at ITA’s main
              computer center in the United States.

              Given the security weaknesses presented in this report, we are concerned that the
              current ITA network infrastructure could pose a greater security risk on ITA systems
              and information. Allowing malicious attackers to easily traverse ITA’s network increases
              the risk that the attackers could leverage security weaknesses in one component as a
              conduit to further attacks against other system components. According to ITA officials,
              the current network is a legacy design dating back a decade or more. ITA also
              acknowledged the need to migrate to a more secure network, which includes
              segmentation of workstations from servers.

                                                            
7
    DOC CITR-005, Removable Media Devices (December 11, 2008).


FINAL REPORT NO. OIG-12-037-A                                                                                6
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Conclusion

During the past year ITA has undertaken activities to improve its IT security posture. However,
unless ITA makes additional improvements to adequately secure its systems, it is likely to
encounter additional successful cyber attacks that could seriously harm ITA’s mission.

During our audit, we issued two memorandums to ITA’s senior management concerning the
results of OIG vulnerability scanning. We further briefed ITA staff on our technical assessment
results, and they are taking action to correct the deficiencies identified.

Recommendations

We recommend that the Under Secretary of Commerce for International Trade:

    1.	 Ensure that system owners and appropriate ITA officials collaborate to identify and
        categorize all information processed, stored, or transmitted by each system and
        categorize each system accordingly;

    2.	 Mitigate the remaining vulnerabilities identified by our vulnerability scan assessments;

    3.	 Improve the patch management process by (a) making timely patches for all software
        products and (b) coordinating within ITA to comprehensively identify and remediate
        software flaws in a timely manner;

    4.	 Address and fully implement critical security settings in database configuration 

        checklists; 


    5.	 Ensure that only authorized software and USB devices are used on both servers and
        workstations; and

    6.	 Strengthen the worldwide enterprise network’s security posture by reducing the threats
        associated with allowing network traffic to flow freely between all computing
        components.


 




FINAL REPORT NO. OIG-12-037-A                                                                      7
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
In response to our draft report, ITA concurred with our findings and recommendations. In
addition, the agency indicated that it has remediated a majority of the findings and is currently
documenting remediation efforts.


 




FINAL REPORT NO. OIG-12-037-A                                                                       8
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
Our objective was to assess the effectiveness of ITA’s information security program by
determining whether key security measures adequately protect the ITA’s systems and its
information. Using a combination of automated software tools and manual review, we
performed internal and external vulnerability assessments on ITA’s systems, including servers,
workstations, databases, and network devices. For one system, we limited our scans to the test
environment due to the concern that such activity can disrupt the service. We validated that
the test system had very similar configurations to the production systems and shared our
assessment results with ITA chief information officer (CIO) staff, seeking their feedback to
validate identified vulnerabilities to eliminate false positives. We also interviewed business unit
officials as needed to understand ITA’s business practices and information collected, as well as
interface with customers.

We reviewed ITA’s compliance with the following applicable provisions of law, regulation, and
mandatory guidance:

    	 FISMA

    	 IT Security Program Policy, U.S. Department of Commerce, released March 9, 2009

    	 NIST FIPS publications

             o	 199 (Standards for Security Categorization of Federal Information and
                Information Systems)

             o	 200 (Minimum Security Requirements for Federal Information and Information
                Systems)

    	 NIST Special Publications

             o	 800-37 (Guide for Applying the Risk Management Framework to Federal
                Information Systems)

             o	 800-53 (Recommended Security Controls for Federal Information Systems and
                Organizations)

             o	 800-60 (Guide for Mapping Types of Information and Information Systems to
                Security Categories)

             o	 800-70 (National Checklist Program for IT Products—Guidelines for Checklist
                Users and Developers)

             o	 800-115 (Technical Guide to Information Security Testing and Assessment)


FINAL REPORT NO. OIG-12-037-A                                                                     9
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

We conducted our fieldwork from January 2012 to May 2012 at ITA Headquarters, Bowie
Computer Center, and remotely assessed system components at eight regional offices (Beijing,
Mexico City, Moscow, Rio De Janeiro, Singapore, New York, San Francisco, and St. Louis).

OIG performed this audit under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated August 31, 2006. We conducted
this audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions.

 




FINAL REPORT NO. OIG-12-037-A                                                                 10
  DEPARTMENT OF COMMERCE
U.S.                                                                                             OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response
                                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                                         International Trade Administration
                                                                         Washtr.gton, D.C.   zoeaa

                                                                                     SEP 2 0 lOll
          MEMORANDUM FOR: AIIen Crawley
                                Assistant Inspector General for Systems Acquisition and IT Security

          FROM:                 ReneeMacklin     ~~1-                                                '---
                                Chief   lnformatio~~                        c..___./
         SUBJECT:               FY2012 Federal Information Security Management Act Audit:
                                Improvements are Needed to Strengthen ITA's
                                Information Technology Security Program Draft Report

         This memorandum serves as the International Trade Administration's response to the
         Inspector General's Draft FY2012 Report, Improvements are Needed to Strengthen ITA's
         Information Technology Security Program.

         ITA's Ch ief Information Officer concurs w ith the findings and recommendations outlined in the
         subject report. The findings accurately reflect the period in which the inspection and testing
         was conducted. ITA has since remediated majority aft he findings and is in the process of
         documenting our remediation .


         ITA notes the challenges of its global users and environment. Therefore ITA continues to make
         significant investments in IT Security and has hired a new IT Security Team with strong
         leadership skills and IT Security skills. The team has instituted a vigorous series of testing and
         remediation protocols, and has expanded the IT Security Team with experts on both the
         operations and procedura l branches. In FY12, ITA made significant progress toward
         consolidating and improving ITA's infrastructure. However we recognize there is more work
         that needs to be done and that IT Security remains a continuous improvement process.

         ITA OCIO will formally respond to t he Recommendations in the near future.

         Please contact Jeffery Jackson, Chief Information Security Officer, at 202·482-5236, if you have
         any questions.

         cc: Ken Hyatt, Acting Deputy Under Secretary, ITA
             Simon Szykman,Chief Information Officer, DOC
             Tim Hurr, Acting Director, Office of Cyber Security, DOC
            Jeffery Jackson, Chief Information Security Officer, ITA
            Justin Guz, Audit liaison, ITA
            Susan Schultz Searcy, Audit Liaison Office of the Chief Information Officer, DOC



                                                                                                              , .. u ....... .,,.~
                                                                                                              T R A D I




011200000142 



FINAL REPORT NO. OIG-12-037-A                                                                                                        11
